BECKER GALLAGHER
Briefs

and

DONNA). WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in State of
Nevada, et al. v. Donald Walden, Jr., et al., was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via e-mail service to the following
parties listed below, this 21st day of May, 2020:
Joshua D. Buck
Leah Lin Jones
Mark Russell Thierman
Thierman Buck, LLP
7287 Lakeside Drive
Reno, NV 89511
(775) 284-1500
josh@thiermanbuck.com
leah@thiermanbuck.com
mark@thiermanbuck.com

Counsel for Respondents
Aaron D. Ford
Attorney General of Nevada
Heidi Parry Stern*
Solicitor General
Jeffrey M. Conner
Deputy Solicitor General
Steve Shevorski
Chief Litigation Counsel
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record

Counsel for Petitioners

SECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 21, 2020.

Donna J. W
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

1

